                                                              O FFICE OF A UDIT S ERVICES , R EGION II
April 2, 2012                                                   J ACOB K. J AVITS F EDERAL B UILDING
                                                                     26 F EDERAL P LAZA , R OOM 3900
                                                                              N EW Y ORK, NY 10278
Report Number: A-02-10-01007

Mr. Scott Kimbell
Director, Contract Administration-J13
National Government Services, Inc.
13550 Triton Park Boulevard
Louisville, KY 40223

Dear Mr. Kimbell:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Resident Data Reported in the Intern and Resident
Information System for Medicare Cost Reports Submitted to National Government Services, Inc.,
and Highmark Medicare Services, Inc. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Brenda Tierney, Audit Manager, at (518) 437-9390, extension 222, or through email at
Brenda.Tierney@oig.hhs.gov. Please refer to report number A-02-10-01007 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Scott Kimbell

Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL


    REVIEW OF RESIDENT DATA
   REPORTED IN THE INTERN AND
RESIDENT INFORMATION SYSTEM FOR
     MEDICARE COST REPORTS
     SUBMITTED TO NATIONAL
 GOVERNMENT SERVICES, INC., AND
HIGHMARK MEDICARE SERVICES, INC.




                        Daniel R. Levinson
                         Inspector General

                            April 2012
                          A-02-10-01007
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                    EXECUTIVE SUMMARY



BACKGROUND

Since its inception in 1965, the Medicare program has shared in the costs of educational
activities incurred by participating hospitals. The Centers for Medicare & Medicaid Services
(CMS), which administers the Medicare program, makes two types of payments to teaching
hospitals to support graduate medical education (GME) programs for physicians and other
practitioners. Direct GME payments are Medicare’s share of the direct costs of training interns
and residents, such as salaries and fringe benefits of residents and faculty and hospital overhead
expenses. (In this report, “resident” includes hospital interns.) Indirect GME payments cover
the additional operating costs that teaching hospitals incur in treating inpatients, such as the costs
associated with using more intensive treatments, treating sicker patients, using a costlier staff
mix, and ordering more tests.

A hospital claims reimbursement for both direct and indirect GME, in part, based on the number
of full-time equivalent (FTE) residents that the hospital trains and the portion of training time
those residents spend working at that hospital. Pursuant to 42 CFR §§ 412.105(f)(1)(iii)(A) and
413.78(b), no resident may be counted as more than one FTE.

CMS makes available the Intern and Resident Information System (IRIS), a software application
that hospitals use to collect and report information on residents working in approved residency
training programs at teaching hospitals. According to 67 Fed. Reg. 48189 (July 23, 2002), the
primary purpose of the IRIS is to ensure that no resident is counted by the Medicare program as
more than one FTE employee in the calculation of payments for the costs of direct and indirect
GME.

National Government Services, Inc. (NGS) is a Medicare Administrative Contractor (MAC)
under contract with CMS to administer the Medicare Part A program for MAC Jurisdiction 13,
which consists of two States—New York and Connecticut. For FY ended 2006, 139 hospitals in
MAC Jurisdiction 13 collected and reported information to the IRIS on residents. In FY ended
2007, the figure was 137 hospitals.

Highmark Medicare Services, Inc. (Highmark) is a MAC under contract with CMS to administer
the Medicare Part A (hospital insurance) program. Highmark administers the program for MAC
Jurisdiction 12, which consists of four States—Pennsylvania, Maryland, New Jersey, and
Delaware—and the District of Columbia. For fiscal year (FY) ended 2006, 133 hospitals in
MAC Jurisdiction 12 collected and reported information to the IRIS on residents. In FY ended
2007, the figure was 132 hospitals.

OBJECTIVE

The objective of our review was to determine whether hospitals in MAC Jurisdiction 13 claimed
Medicare GME reimbursement for residents also claimed by hospitals in MAC Jurisdiction 12 in
accordance with Federal requirements.



                                                  i
SUMMARY OF FINDING

Hospitals in MAC Jurisdiction 13 did not always claim Medicare GME reimbursement for
residents in accordance with Federal requirements. Specifically, 34 hospitals in MAC
Jurisdiction 13 overstated direct and/or indirect FTE counts on cost reports covering FYs 2006
and 2007 for residents who were also included in the FTE counts on cost reports submitted by
hospitals in MAC Jurisdiction 12. As a result, 24 of these 34 hospitals received excess Medicare
GME reimbursement totaling $474,662 for residents who were also claimed by hospitals in
MAC Jurisdiction 12 for the same period and counted in the IRIS as more than one FTE. For the
remaining 10 hospitals, the FTE overstatements did not have an effect on the hospitals’ Medicare
GME reimbursement.

The overstated FTE counts and excess reimbursement occurred because there was no Federal
requirement for NGS to compare IRIS data submitted by hospitals in its jurisdiction to IRIS data
submitted by hospitals in other MAC jurisdictions to detect whether a resident had overlapping
rotational assignments. As a result, NGS did not have procedures to ensure that residents
working at hospitals in all other MAC jurisdictions were not counted as more than one FTE in
the calculation of Medicare GME payments.

RECOMMENDATIONS

We recommend that NGS:

   •		 recover $474,662 in excess Medicare GME reimbursement paid to 24 hospitals in MAC
       Jurisdiction 13,

   •		 adjust the direct and indirect FTE counts claimed on the Medicare cost reports covering
       FYs 2006 and 2007 for each of the hospitals that did not did always claim Medicare
       GME reimbursement in accordance with Federal requirements,

   •		 consider developing procedures to ensure that no resident working at hospitals in 

       different MAC jurisdictions is counted as more than one FTE in the calculation of


       Medicare GME payments, and



   •		 consider working with Highmark to identify and recover any additional overpayments
       made to hospitals in MAC Jurisdiction 13 for residents also claimed by hospitals in MAC
       Jurisdiction 12 and for whom the FTE count exceeded one on Medicare cost reports
       submitted after FY 2007.




                                               ii
NATIONAL GOVERNMENT SERVICES, INC., COMMENTS
AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, NGS did not concur with our recommendations. NGS
stated that its statement of work for CMS does not require it to identify incorrect intern and
resident FTE counts with other contractors and CMS does not provide funding for such work. In
addition, NGS stated that it could not confirm the excess Medicare reimbursement identified
because it does not have access to information provided to Highmark by hospitals in MAC
Jurisdiction 12. Nevertheless, NGS indicated that it would pursue each recommendation if CMS
were to modify its statement of work and provide funding for the effort required.

After reviewing NGS’s comments, we maintain that our findings and recommendations are valid.
NGS’s comments appear in their entirety as the Appendix.




                                              iii
                                                   TABLE OF CONTENTS



                                                                                                                              Page



INTRODUCTION.............................................................................................................1



     BACKGROUND ..........................................................................................................1


        Medicare Payments for Graduate Medical Education .........................................1


        Intern and Resident Information System .............................................................1


        National Government Services, Inc. ....................................................................2


        Highmark Medicare Services, Inc. ......................................................................2



     OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................2


         Objective ..............................................................................................................2


         Scope....................................................................................................................3


         Methodology........................................................................................................3



FINDING AND RECOMMENDATIONS......................................................................4



     RESIDENT FULL-TIME EQUIVALENT COUNT EXCEEDED ONE ....................4



     RECOMMENDATIONS..............................................................................................5



     NATIONAL GOVERNMENT SERVICES, INC., COMMENTS ..............................5



     OFFICE OF INSPECTOR GENERAL RESPONSE ...................................................6



APPENDIX

     NATIONAL GOVERNMENT SERVICES, INC., COMMENTS




                                                                      iv
                                                   INTRODUCTION



BACKGROUND

Medicare Payments for Graduate Medical Education

Since its inception in 1965, the Medicare program has shared in the costs of educational
activities incurred by participating hospitals. The Centers for Medicare & Medicaid Services
(CMS), which administers the Medicare program, makes two types of payments to teaching
hospitals to support graduate medical education (GME) programs for physicians and other
practitioners. Direct GME payments are Medicare’s share of the direct costs of training interns
and residents, such as salaries and fringe benefits of residents and faculty and hospital overhead
expenses. 1 Indirect GME payments cover the additional operating costs that teaching hospitals
incur in treating inpatients, such as costs associated with using more intensive treatments,
treating sicker patients, using a costlier staff mix, and ordering more tests.

A hospital claims reimbursement for both direct and indirect GME, in part, based on the number
of full-time equivalent (FTE) residents that the hospital trains and the portion of time those
residents spend working at the hospital. Pursuant to 42 CFR § 412.105(f)(1)(iii)(A), FTE status
is based on the total time necessary to fill a residency slot. The regulation states: “If a resident
is assigned to more than one hospital, the resident counts as a partial [FTE] based on the
proportion of time worked in any areas of the hospital listed in paragraph (f)(1)(ii) of this section
to the total time worked by the resident. A hospital cannot claim the time spent by residents
training at another hospital.” 2

For payment purposes, the total number of FTE residents is the 3-year “rolling average” of the
hospital’s actual FTE count for the current year and the preceding two cost-reporting periods
(42 CFR §§ 412.105(f) and 413.79(d)(3)). Pursuant to 42 CFR §§ 412.105(f)(1)(iii)(A) and
413.78(b), no individual may be counted as more than one FTE. Each time the hospitals claims
GME reimbursement for a resident it must provide CMS with information on the resident’s
program, year of residency, dates and locations of training (including training at other hospitals),
and percentage of time working at those locations (42 CFR §§ 412.105(f) and 413.75(d)).

For fiscal year (FY) 2009 (the most current data available), teaching hospitals nationwide
claimed GME reimbursement totaling $3 billion for direct GME and $6.5 billion for indirect
GME.

Intern and Resident Information System

CMS makes available the Intern and Resident Information System (IRIS), a software application
that hospitals use to collect and report information on residents working in approved residency
programs at teaching hospitals. Hospitals receiving direct and/or indirect GME payments must
submit, with each annual Medicare cost report, IRIS data files that contain information on their

1
    In this report, “resident” includes hospital interns.
2
    When referring to the time a resident spends at a hospital, the terms “working” and “training” are interchangeable.

                                                            1


residents, including, but not limited to, the dates of each resident’s rotational assignment.
According to 67 Fed. Reg. 48189 (July 23, 2002), the primary purpose of the IRIS is to ensure
that no resident is counted by the Medicare program as more than one FTE employee in the
calculation of payments for the costs of direct and indirect GME.

National Government Services, Inc.

National Government Services, Inc. (NGS), is a Medicare Administrative Contractor (MAC) 3
under contract with CMS to administer the Medicare Part A program for MAC Jurisdiction 13,
which consists of two States—New York and Connecticut. For FY ended 2006, 139 hospitals in
Jurisdiction 13 collected and reported information to the IRIS on residents. In FY ended 2007,
the figure was 137 hospitals.

For FYs 2006 and 2007, hospitals in MAC Jurisdiction 13 claimed GME reimbursement totaling
$1.5 billion for direct GME and $2.6 billion for indirect GME.

For Medicare cost reports covering FYs 2006 and 2007, NGS reviewed IRIS data submitted by
hospitals in MAC Jurisdiction 13 to identify any residents with overlapping rotational
assignments at more than one hospital. Additionally, beginning with cost reports covering
FY 2008, NGS compared IRIS data submitted by hospitals in MAC Jurisdictions 13, 14
(Massachusetts, New Hampshire, Vermont, Rhode Island and Maine) and 15 (Ohio and
Kentucky) to identify residents with overlapping rotational assignments. However, as of
October 1, 2010, NGS only reviews IRIS data to identify residents with overlapping rotations
when a hospital’s direct GME or indirect IME is selected for desk review or audit.

Highmark Medicare Services, Inc.

Highmark Medicare Services, Inc. (Highmark), is a MAC under contract with CMS to administer
the Medicare Part A (hospital insurance) program. Highmark administers the program for MAC
Jurisdiction 12, which consists of four States—Pennsylvania, Maryland, New Jersey, and
Delaware—and the District of Columbia. For FY ended 2006, 133 hospitals in Jurisdiction 12
collected and reported information to the IRIS on residents. In FY ended 2007, the figure was
132 hospitals.

For FYs 2006 and 2007, hospitals in MAC Jurisdiction 12 claimed GME reimbursement totaling
$650 million for direct GME and $1.5 billion for indirect GME.




3
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer to MACs, between October 2005 and October 2011, the functions of fiscal intermediaries
and carriers. For each MAC jurisdiction, the legal fiscal intermediaries and carriers continue to service the providers
in those States until the MAC assumes responsibility for the workload.

                                                          2

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our review was to determine whether hospitals in MAC Jurisdiction 13 claimed
Medicare GME reimbursement for residents also claimed by hospitals in MAC Jurisdiction 12 in
accordance with Federal requirements.

Scope

We reviewed IRIS data that hospitals in MAC Jurisdictions 12 and 13 submitted to support
resident training costs claimed on annual Medicare cost reports covering FYs 2006 and 2007.
We previously issued a report (A-02-09-01021) to NGS on resident data reported in the IRIS by
hospitals within its jurisdiction. In addition, we will be issuing a separate report (A-02-10­
01006) to Highmark on hospitals in MAC Jurisdiction 12 that claimed Medicare GME
reimbursement for residents also claimed by hospitals in MAC Jurisdiction 13.

We did not assess NGS’s overall internal control structure. Rather, we limited our review of
internal controls to those applicable to our audit, which did not require an understanding of all
internal controls over the Medicare program.

Methodology

To accomplish our objective, we:

    •		 reviewed applicable Federal laws, regulations, and guidance;

    •		 held discussions with NGS officials to gain an understanding of NGS’s procedures for
        reviewing IRIS data submitted by hospitals in other MAC jurisdictions;

    •		 obtained FYs 2006 and 2007 IRIS data from Highmark and NGS for all hospitals in
        MAC Jurisdictions 12 and 13, respectively;

    •		 analyzed the IRIS data to identify residents claimed by at least one hospital in MAC
        Jurisdiction 12 and at least one hospital in MAC Jurisdiction 13 for the same rotational
        assignment (e.g., weekly rotation schedule) and for whom the total FTE count exceeded
        one; 4

    •		 obtained and reviewed rotation schedules and other documentation from hospitals in
        MAC Jurisdictions 12 and 13 for each resident whose total FTE count exceeded one to
        determine which hospital should have claimed Medicare GME reimbursement for the
        resident during the overlapping period;



4
 The FTE count for a resident exceeded one FTE when the total direct GME percentage and/or the total indirect
GME percentage for overlapping rotational assignments, as reported in the IRIS, was greater than 100 percent.

                                                        3

    •		 adjusted the claimable direct and/or indirect FTE counts for hospitals that should not
        have claimed GME reimbursement for residents during an overlapping period or
        provided conflicting documentation that did not resolve the overlapping rotation dates; 5
        and

    •		 determined the net dollar effect of the adjustments to the direct and indirect FTE counts
        by recalculating each hospital’s Medicare cost report(s). 6

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                FINDING AND RECOMMENDATIONS

RESIDENT FULL-TIME EQUIVALENT COUNT EXCEEDED ONE

Pursuant to 42 CFR § 412.105(f)(1)(iii)(A), if a resident is assigned to more than one hospital,
the resident counts as a partial FTE based on the proportion of time worked in the hospital to the
total time worked by the resident. A hospital cannot claim the time spent by residents training at
another hospital. In addition, pursuant to 42 CFR §§ 412.105(f)(1)(iii)(A) and 413.78(b), no
individual may be counted as more than one FTE in the calculation of Medicare GME payments.

For Medicare cost reports covering FYs 2006 and 2007, 34 7 hospitals in MAC Jurisdiction 13
claimed GME reimbursement for residents who were also claimed by at least one hospital in
MAC Jurisdiction 12 for the same period and whose total FTE count exceeded one. Specifically,
these 34 hospitals overstated FTE counts for direct GME reimbursement by a total of 3.87 FTEs
for FY 2006 and 2.51 FTEs for FY 2007. In addition, the 34 hospitals overstated FTE counts for
indirect GME reimbursement by a total of 4.15 FTEs for FY 2006 and 2.57 FTEs for FY 2007.

Twenty-four of the thirty-four hospitals with overstated FTEs received excess Medicare GME
reimbursement totaling $474,662. Specifically, we determined that these hospitals overstated, on
Medicare cost reports for 2006 through 2009, 8 FTE counts for FYs 2006 and 2007. We
determined this by using CMS’s 3-year rolling average formula. The 24 hospitals overstated:

5
 According to NGS officials, the resolution of overlaps or duplicate rotations is the responsibility of each individual
hospital. When hospitals cannot reach an agreement on which hospital should claim a resident, no hospital can
count the FTE or claim reimbursement for the resident.
6
 We used Worksheet E-3, Part IV, to recalculate direct GME reimbursement and Worksheet E, Part A, for indirect
GME reimbursement.
7
 For FYs 2006 and 2007, the 34 hospitals claimed GME reimbursement totaling $641 million for direct GME and
$1.1 billion for indirect GME.
8
 The 2006 FTE overstatements affected GME costs claimed on FYs 2007 and 2008 Medicare cost reports. The
FY 2007 FTE overstatements affected GME costs claimed on FYs 2008 and 2009 Medicare cost reports.

                                                          4

    •		 direct GME reimbursement by $228,244, and

    •		 indirect GME reimbursement by $246,418.

For the remaining 10 hospitals, the overstated FTEs did not have a dollar effect on Medicare
GME reimbursement because the FTE adjustments for 5 hospitals was equal to 0 when rounded
to the nearest hundredth, 4 hospitals were still over their FTE caps 9 after adjusting the claimable
direct and/or indirect FTE counts, and the remaining 1 hospital was new to the GME program
and had not yet claimed GME reimbursement at the time of our review.

The overstated FTE counts and excess reimbursement occurred because there was no Federal
requirement for NGS to compare IRIS data submitted by hospitals in its jurisdiction to IRIS data
submitted by hospitals in other MAC jurisdictions to detect whether a resident had overlapping
rotational assignments. As a result, NGS did not have procedures to ensure that residents
working at hospitals in MAC jurisdictions not administered by NGS were not counted as more
than one FTE in the calculation of Medicare GME payments.

RECOMMENDATIONS

We recommend that NGS:

    •		 recover $474,662 in excess Medicare GME reimbursement paid to 24 hospitals in MAC
        Jurisdiction 13,

    •		 adjust the direct and indirect FTE counts claimed on the Medicare cost reports covering
        FYs 2006 and 2007 for each of the hospitals that did not always claim Medicare GME
        reimbursement in accordance with Federal requirements,

    •		 consider developing procedures to ensure that no resident working at hospitals in 

        different MAC jurisdictions is counted as more than one FTE in the calculation of


        Medicare GME payments, and



    •		 consider working with Highmark to identify and recover any additional overpayments
        made to hospitals in MAC Jurisdiction 13 for residents also claimed by hospitals in MAC
        Jurisdiction 12 and for whom the FTE count exceeded one on Medicare cost reports
        submitted after FY 2007.

NATIONAL GOVERNMENT SERVICES, INC., COMMENTS

In written comments on our draft report, NGS did not concur with our recommendations. NGS
stated that its statement of work for CMS does not require it to identify incorrect intern and
resident FTE counts with other contractors and CMS does not provide funding for such work. In
addition, NGS stated that it could not confirm the excess Medicare reimbursement identified

9
 Section 1886 of the Social Security Act established caps on the number of residents that a hospital may claim for
Medicare direct and indirect GME reimbursement.

                                                         5

because it does not have access to information provided to Highmark by hospitals in MAC
Jurisdiction 12. Nevertheless, NGS indicated that it would pursue each recommendation if CMS
were to modify its statement of work and provide funding for the effort required.

NGS’s comments appear in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing NGS’s comments, we maintain that our findings and recommendations are valid.
While NGS’s statement of work for CMS does not require it to compare IRIS data submitted by
hospitals in its jurisdiction to IRIS data submitted by hospitals in other MAC jurisdictions to
detect whether a resident had overlapping rotational assignments, NGS is responsible for
ensuring that the payments it makes to hospitals are in accordance with Federal regulations
(Social Security Act §§ 1874(A) and 1886). The excess Medicare reimbursement amounts we
identified are based upon FTE overstatements that are inconsistent with Federal regulations.
Contrary to 42 CFR §§ 412.105(f)(1)(iii)(A) and 413.78(b), which state that no individual may
be counted as more than one FTE in the calculation of Medicare GME payments, cost reports for
hospitals in MAC jurisdiction 13 included residents whose total FTE count exceeded one.
Accordingly, we continue to recommend that NGS recover $474,662 and adjust the direct and
indirect FTE counts for each of the hospitals in MAC jurisdiction 13 that claimed Medicare
GME reimbursement for residents whose total FTE count exceeded one. Finally, we provided
NGS with the information necessary to confirm the excess reimbursement we identified.




                                              6


APPENDIX


                                                                                                               Page 1 of 2


APPENDIX: NATIONAL GOVERNMENT SERVICES, INC., COMMENTS



""'".....National
   JIll{
                          C~Ver"m;rrt
                     Servlc:es_                                                            Medicare
       National Go\'c",,,,..,,,t Services. Inc.
       P.O. Box 4900
       Syr."",,", NY 13221-4900
       ,,' ww.NCS Modicof'C.com
       II eMS C,,,,I,,,,,,<'II Ag.<nl


           February 20, 2012




           Report Number: A{J2-1Q-OlOO7

           Mr. James P. Ede rl
           Regional Inspectur General
            for Audit Services
           Office of Inspector General- Region II
           Jacob Javits Federal Building
           26 Feder al Plaza - Room 3900
           New York, NY 10278

           Dear Mr. Edcrt:

           National Government Services (NGS) is in receipt of your draft report (A-02-1 0-(1007) dated
           January 24, 2012, entitled Review of Resident Data Reported in the Intern and Resident
           Information System for Medicare Cost Rgports Submitted to Nation al Government Services. Inc ..
           and Highmark Medicare Services. Inc. NGS has noted the ore recommendat ions below and
           respectfully offers a response to each as requested.

           First OIG Rci;Qmmendution:
           Recover $474,662 in excess Medicare GME reimbursement paid to 24 hospitals in MAC
           Jurisdiction 13.

           Nes Response:
           NeS does not concur with this recommendation. As delineated in the OIG report, the excess
           Medicare GME reimbursement amount ofS474,662 was determined by comparing hospital
           information provided to NGS for )13 and Highmark for J12. NeS does not hJve JCcess to the
           hospital information provided to Highmark in J12. As such, NeS is not able to confirm this
           recovery amount nor is NGS ab le to dete rmine the appropriate recovery by provider. Since it is
           not currently a eMS requ irement tha t NGS collaborate with other contractors in de termining
           incorrect identification of intern and resident FTE counts, NGS is not in a position to determine
           the proper recovery amount by provider. The J13 MAC SOW docs Dot require NGS to complete
           this work nor has eMS provided flUlding to do so.




                                                                                                CAIS/
                                                                                                     Page 2 of 2






 Second OIG RecommendatiQn:
 Adjust the direct and indirect FTE counts claimed on the Medicare cost reports covering FYs 2006
 and 2007 for each of the hospitals that did not always claim Medicare CME reimbursement in
 accordance with fed eral requirements,

 NGS Response:
 NGS does not concur with this recommendation. The J13 MAC SOW section C.S. t 1.3.3
 subsection (''Iltitled, "Interns and Residents Information System", states, "The cuntracior shall
 implement and notify providers that the residen ts in app roved gr<lduate medical education
 (GME) programs of alllnterns and Residents Information System (IRIS) upd ates in accordance
 with CMS instructions provided in periodic change requests (CR's)." There is no requirement in
 theJ13 MAC SOW n or has Ct.·IS provided funding for the effort recommended by the OIG.

 Third OIG Recommendatioo:
 Consider develop in g procedures to ensure that no resid ent working at hospitals in d ifferent
 MAC juri~dictions is counted as m ore than one ITE in the calculation of Medicare CME
 payments.

 NGS Respoosc:
 NGS does not concur with th e recommendation. lhe 113 MAC SOW docs not include this
 requirement nor has CMS p rovided funding for this effort.

 Fourth OIG Recommendation:
 Consider working w ith Higlunark to identify and recover any additional overpayments made to
 hospitals in MAC Jurisdiction 13 for residents also claimed by hospitals in MAC Jurisdiction 12
 and for whom the IT!! count exceeded one on the Medicare cost report submitted after FY2007.

 NGS RCS:Qmmendati on:
 NGS does not concur with this recommendation. The J13 MAC SOW dues not include this
 requirement nor has CMS provided funding for th is effort.

 Altho ugh our response docs not su pport the directives recommended by the OIG, NGS is
 prepared to accept and pursue each of these n:wmmendations if CMS we re to modify the J13
 MAC SOW and provide fund ing for the effort required. NGS has processes in place for
 exa mining Intern and Resid ent overlaps within J13, and we are prepared to expand our processes
 to a cross-jurisdictional application if funding is made available.

 SinC<'rciy,



~ .~
 Scott Kimbell
 Director, Contract Administration- J13




  National Government Services, Inc.                                                       Page 2 of 2
